                                 UNITED STATES DEPARTMENT OF EDUCATION
                                                       OFFICE OF INSPECTOR GENERAL



                                                                  August 24, 2007

                                                                                                           Control Number
                                                                                                           ED-OIG/A19G0006
Lawrence Warder
Acting Chief Operating Officer
Federal Student Aid
Union Center Plaza III
830 First Street, N.E.
Washington, DC 20002


Dear Mr. Warder:

This Final Audit Report, entitled Controls Over Contract Monitoring for Federal Student Aid
Contracts, presents the results of our audit. The purpose was to determine whether Federal
Student Aid’s (FSA) contract monitoring process ensures (1) contractors adhere to the
requirements of the contract, and (2) FSA receives the products and services intended. Our
review included evaluation of the 10 FSA contracts for which the highest amount of payments
were made during Fiscal Year (FY) 2005.



                                                     BACKGROUND



In April 2005, the Secretary of Education delegated procurement authority to the Chief
Operating Officer (COO) in FSA, to procure property and services in the performance of
functions managed by FSA as a performance based organization. Even though FSA has its own
procurement authority, it is obligated to follow the Department of Education’s (Department)
policies and procedures, in addition to its own FSA-specific policies and procedures.

Contract management staff includes the Contracting Officer (CO), Contract Specialist (CS), and
the Contracting Officer’s Representative (COR). The CO has overall responsibility for contract
management. However, the contract monitoring process is a team effort between the CO, CS,
and COR. Contract monitoring is based on the terms and conditions in each contract, the
requirements set forth in the Federal Acquisition Regulation (FAR), and the Department’s and
FSA’s policies and procedures.

For FY 2005, payments under Department contracts totaled $1,474,385,045. Payments to FSA
contracts totaled $843,696,458.09 (57 percent). During the year, FSA was responsible for 95 of
519 total active contracts (18 percent). FSA was the Principal Office (PO) with the highest
The Department of Education's mission is to promote student achievement and preparation for global competitiveness by fostering educational
                                                  excellence and ensuring equal access.
Final Audit Report
ED-OIG/A19G0006                                                                        Page 2 of 17

amount of contract payments for FY 2005, and was responsible for the second highest amount of
active contracts during the year.



                                      AUDIT RESULTS



We found FSA’s contract monitoring process did not always ensure contractors adhered to
contract requirements and FSA received the products and services intended. FSA staff did not
always follow established regulations, policies or procedures in 9 out of 10 contracts reviewed.
Specifically, we found FSA staff did not always ensure appropriate review and approval of
invoices, appropriately communicate acceptance/rejection of deliverables, issue modifications
for contract changes, and appropriately issue or sign COR appointment letters. This occurred
because FSA staff were not always familiar with applicable policies and procedures, and due to
resource limitations.

In its response to the draft audit report, FSA concurred with the recommendations. The complete
text of the response is included as Attachment 3 to this report.


FINDING - Improvements Were Needed in Monitoring of FSA Contracts

We noted at least one area where improvements were needed in contract monitoring for 9 of the
10 contracts reviewed. Specifically, we noted that FSA staff did not always:

   1.   Ensure appropriate review and approval of invoices (9 contracts),
   2.   Appropriately communicate acceptance/rejection of deliverables (5 contracts),
   3.   Issue and/or sign modifications for contract changes (3 contracts), and
   4.   Appropriately issue and/or sign COR appointment letters. (2 contracts)

FAR Section 1.602-2 states,

        Contracting officers are responsible for ensuring performance of all necessary
        actions for effective contracting, ensuring compliance with the terms of the
        contract, and safeguarding the interests of the United States in its contractual
        relationships.

Department Directive (Directive) OCFO [Office of the Chief Financial Officer]:2-108, Contract
Monitoring for Program Officials, dated September 16, 2004, Section II, states,

        The policy of the Department is: (a) to monitor every contract to the extent
        appropriate to provide assurance that the contractor performs the work called for
        in the contract; and (b) to develop a clear record of accountability for
        performance.
Final Audit Report
ED-OIG/A19G0006                                                                                      Page 3 of 17

Details on the issues noted in each area follow. Attachment 2 includes details of issues noted for
each contract.

Issue 1 – FSA Staff Did Not Ensure Invoices Were Properly Reviewed and Approved

In 9 out of the 10 contracts reviewed, we noted the COs and/or COR staff did not follow
applicable policies and procedures for processing invoices. Specifically, we found FSA staff did
not ensure invoices were reviewed and approved by the COs, and incentive payments were
verified by appropriate staff.

Invoices Were Not Properly Reviewed and Approved by Contracting Officers

In 9 out of 10 contracts reviewed, we found the COs were not properly involved in the invoice
approval process. (ED99DO0002, ED01GS0002, ED03CO0102/0002, ED04CO0004,
ED04GS0002, ED04PO0377, ED04PO1805, ED05CO0008, PM95009001) 1

All of the COs for these contracts stated that the CORs, along with the FSA budget office, are
responsible for processing invoices. Specifically, we found when invoices are received they are
sent directly to the FSA budget office. The invoices are then routed to the responsible COR for
proper verification. The COR verifies the invoice and creates a receipt in the Contracts
Purchasing and Support System (CPSS). 2 The COR then sends the invoice and supporting
documentation to the budget office, indicating that it is acceptable to proceed with approval and
payment of the invoice. The budget office posts the receipt in CPSS and approves the invoice
for payment in the Department’s Financial Management System Software (FMSS). 3

Directive Section VII.N.4 states,

        The CO is responsible for approving a contractor’s invoices for payment, but
        usually after review and advice from the COR in conjunction with the CO’s own
        analysis concerning the contents of the invoice/voucher and the contractor’s
        performance relative to what is being billed.

FSA stated the invoice approval process was transferred to FSA’s budget office in 2002 as a
result of resource and workload issues in the Acquisitions office. FSA agreed that COs should
be involved in the invoice process and noted they were in the process of implementing a policy
in which the COs would assume responsibility for both receipt and invoice approval. Warrants
that were issued for the budget office to approve payments will be withdrawn.

Incentive Payments Were Not Verified by Appropriate Staff

In 1 of the 10 contracts reviewed, we found FSA did not ensure that incentive payments were
verified by appropriate staff. (ED04CO0004) The COR directed Office of Inspector General

1
  Contract numbers are provided parenthetically for each issue area. See Attachment 1 for a list of the contracts 

reviewed, and Attachment 2 for details of the issues noted by contract. 

2
  CPSS is a component system of the Department of Education Central Automated Processing System (EDCAPS).

3
  Invoices are approved in both CPSS and FMSS. 

Final Audit Report
ED-OIG/A19G0006                                                                        Page 4 of 17

(OIG) staff to a Program Analyst in the Contract Performance & Analysis Group to discuss how
to verify the incentive payment from one of the invoices reviewed. The Program Analyst could
not assist us and had to seek the assistance of the Independent Verification & Validation (IV&V)
contractor to explain how the incentive payment was calculated. In addition, the IV&V
contractor stated that she verified all of the incentive payments during our scope period, and that
they were in the process of transitioning so that FSA will understand how to verify the payments
when the IV&V contract ends.

Directive Section VII.G.2.d states,

       There are many varieties of payment provisions that might be incorporated into
       contracts depending on the nature of the work and other factors. It is the
       responsibility of the COR to become familiar with the payment provisions
       applicable to each contract he or she must monitor. . . . The COR must review
       invoices individually and collectively as part of the responsibility to monitor the
       contractor’s progress in performing under the contract.

FAR Section 7.503 (a) states,

       Contracts shall not be used for the performance of inherently governmental
       functions.

Section 7.503 Part C.12.VII states inherently governmental functions include,

       Determining whether contract costs are reasonable, allocable, and allowable….

FSA did not agree and stated that while the IV&V contractor did verify the formula and resulting
calculations, the decision to make payment remained a COR recommendation and required
budget office approval. OIG did not agree with FSA’s response based on the fact that the COR
stated he relies on his staff for proper review of invoices, which is the basis for his payment
decision.

FSA did not fulfill its responsibility to ensure payments to contractors were appropriate. As a
result, FSA lacks assurance that payments are proper and its interests are protected.


Issue 2 – FSA Staff Did Not Appropriately Communicate Acceptance/Rejection of
Deliverables

In 5 out of the 10 contracts reviewed, we noted CORs did not adequately recommend
acceptance/rejection of deliverables. (ED01GS0002, ED03CO0102/0002, ED04CO0004,
ED04GS0002, ED04PO0377)
Final Audit Report
ED-OIG/A19G0006                                                                       Page 5 of 17

Directive Section VII.N.2 states,

       Only a CO can formally accept or reject deliverables. However, with respect to
       deliverables which the contractor must send directly to the COR, the COR will
       recommend acceptance or rejection to be furnished in writing to the CO.

Directive Section V.I states,

       The CO is the Government’s exclusive agent as party to a contract—
       the contractor is the other party – and therefore the only person with the authority
       to enter into, administer, and terminate contracts and make related determinations
       and findings. The CO responsible for a particular contract is named in the
       contract.

FSA’s COR Contract Monitoring Handbook, dated April 7, 2005, Section 28.0,
Deliverable Acceptance/Payment, states,

       The contractor may be required to send deliverables either to the COR or to the
       CO. For deliverables sent to the COR, the COR generally is responsible for
       conducting the inspection and recommending acceptance to the CO. Only a CO
       can formally accept or reject deliverables. However, with respect to deliverables
       which the contractor must send directly to the COR, the COR will recommend
       acceptance or rejection in writing to the CO.

FSA’s COR Contract Monitoring Handbook, Section 28.0, also provides an example of a
contract deliverable inspection worksheet, which the COR should use to communicate details of
acceptance/rejection of deliverables to the CO.

In three contracts reviewed, the CORs stated they accept deliverables for the contracts, not the
COs. (ED03CO0102/0002, ED04GS0002, ED04PO0377) In one of these contracts, the COR
stated she returns deliverables to the contractor if necessary and has the contractor resubmit them
with the changes made. (ED04GS0002) In another contract, the Program Manager indicated he
was “informally” rejecting about one report per month, providing written comments to the
contractor and asking them to resubmit with appropriate changes made. (ED04PO0377) By
sending deliverables back to the contractor for correction, the COR and Program Manager were,
in effect, rejecting the deliverables. The CO was not involved in the rejection of these
deliverables in either contract.

In one contract reviewed, the COR stated he recommended acceptance of deliverables to an
employee within FSA’s budget office who is responsible for approving invoices. Specifically,
recommendation of acceptance of deliverables is communicated to the “designated CO” in the
budget office instead of the CO who actually administers the contract. (ED04CO0004)

In one of the contracts reviewed, the COR stated that acceptance of deliverables was indicated in
CPSS. Prior to the payment of invoices, a receipt for the invoice is created in CPSS and a
recommendation of acceptance is noted on the receipt. However, we found this process did not
Final Audit Report
ED-OIG/A19G0006                                                                       Page 6 of 17

specifically document the COR’s recommendation for acceptance or rejection of specific
deliverables. (ED01GS0002)

Without appropriate communication of deliverable acceptance/rejection, FSA may have
difficulty pursuing action against a contractor for nonperformance. Acceptance or rejection of
deliverables by unauthorized personnel may compromise efforts to enforce contract
requirements.

FSA stated existing staffing levels limit the level of involvement from the COs. Specifically, the
COs were involved in cases where the deliverables did not meet the standards in the contracts as
identified by the COR. In cases where the COR recommended acceptance, no further action was
required by the CO to demonstrate acceptance except by receipt approval in the system.
However, this specific approval was made by FSA’s budget office instead of the CO. FSA
concurred it was not an effective procedure and stated they were in the process of implementing
a policy where the Administrative Contracting Officer approves all receipts and therefore
systemically accepts deliverables.


Issue 3- FSA Staff Did Not Appropriately Issue and/or Sign Modifications For Contract
Changes

In 3 of the 10 contracts reviewed, modifications were not appropriately issued and/or signed for
significant contract changes. Directive Section VII.I, “Initiating Changes to a Contract,” states,

       Few contracts go to completion without some type of change or modification.
       The COR should anticipate the likely need for modifications and be prepared to
       deal with a variety of situations which seem to call for a formal change to the
       contract. Only a CO can issue modifications to the contract. A modification can
       be accomplished in accordance with a contract provision or by mutual agreement
       between the Government and the contractor.

In 1 contract, 5 out of 72 bilateral modifications were not signed by the contractor.
(ED01GS0002) In addition, the CO did not give proper notification regarding termination of
Virtual Data Center (VDC) printing services that were no longer deemed necessary. FSA staff
stated they verbally communicated to the contractor on February 18, 2005, that certain VDC
printing services were no longer needed, effective February 28, 2005, however, this change was
never incorporated into a written modification.

In another contract, the deliverables schedule was modified by the COR, without the CO issuing
a modification. (ED04GS0002) As a result, nine deliverables were submitted past their official
due dates. FSA agreed with this issue, and stated the CO did not delegate authority to the COR
as it relates to changing the deliverable schedule(s). FSA also stated in this case, while fully
within the COs authority for a unilateral modification, it appears that changes were made outside
of the appropriate process.
Final Audit Report
ED-OIG/A19G0006                                                                        Page 7 of 17

In one contract, the modification assigning a new COR was not issued timely. (ED04CO0004)
The COR was officially appointed on January 1, 2004. The modification was issued on
November 28, 2005, which is almost two years later than the COR appointment date.
Modifications are issued to ensure that all commitments of the contractor and the Government
are met according to contract requirements. Without issuing modifications for relevant contract
changes, the Government cannot ensure that its needs and interests are protected.


Issue 4- FSA Staff Did Not Appropriately Issue and/or Sign COR Appointment Letters
Timely

In 2 of the 10 contracts reviewed, COR appointment letters were not issued and/or signed in a
timely manner by the COR. Directive Section VI.C.2-3 states the CO,

       2. Ensures that the COR is designated for each contract. 3. Issues to the COR for
       each contract a memorandum outlining the COR’s basic contract monitoring
       responsibilities and limitations, and explains this information to the extent judged
       appropriate. COR appointment letters are issued not later than seven (7) days
       from the date of the contract award.

Directive Section VI.E.1 states the COR

       Ensures receipt of appointment memorandum from the CO by no later than seven
       (7) days from the date of the award. Reads, signs and returns one copy of the
       original memorandum to the CO for inclusion in the official contract file within
       ten (10) days of receipt of the memorandum.

Specifically, we noted the following:

       •	   In two contracts, a COR delegation letter was not found in the contract files for the
            original COR. (ED03CO0102/0002, ED04CO0004 )

       •	   In one contract, the current COR of the contract was officially appointed on January
            1, 2004; however, the appointment letter was not signed until July 9, 2004.
            (ED04CO0004)

The COR appointment memorandum reminds the COR of his/her responsibilities and limitations
in the monitoring process. The memorandum includes such things as training and certification
requirements, monitoring and communication responsibilities, and actions the COR does not
have the authority to perform. Without issuing and signing these documents timely, the CO does
not have assurance that the COR understands the extent and limitations of his/her responsibilities
and authority.
Final Audit Report
ED-OIG/A19G0006                                                                       Page 8 of 17

Summary

Improvements were needed in monitoring by FSA staff for 9 of the 10 contracts reviewed. FSA
staff did not always follow established regulations, policies, and procedures. FSA staff did not
appropriately review and approve invoices or appropriately communicate acceptance/rejection of
deliverables. In addition, FSA staff did not always issue and/or sign modifications for contract
changes. Finally, COs did not ensure COR appointment letters were issued and/or signed timely.

As a result, FSA lacks assurance that payments are proper and its interests are protected.
Contract actions by unauthorized personnel may compromise efforts to enforce contract
requirements. By not issuing modifications for relevant contract changes, the Government
cannot ensure that its needs and interests are protected. Untimely issuance and/or signoff of
COR appointment memoranda could result in confusion over the responsibilities and limitations
of the COR’s duties.

Recommendations

We recommend that the Acting Chief Operating Officer, take actions to:

1.1	    Develop and implement a process to ensure COs conduct proper analysis and approval of
        invoices.

1.2 	   Ensure contract staff have the technical expertise needed to adequately verify payments.

1.3 	   Develop and implement a process to ensure acceptance/rejection of deliverables is
        appropriately communicated by the COR to the CO. Ensure the CORs provide written
        recommendations of deliverable acceptance/rejection to the COs. This could include the
        use of the deliverable inspection worksheet that is suggested in the FSA COR Contract
        Monitoring Handbook.

1.4 	   Ensure the CO is the only individual communicating acceptance/rejection to the
        contractor.

1.5	    Ensure formal modifications are issued for relevant contract changes. Issue
        modifications for the contracts noted above with regard to deliverable termination and
        changes in deliverable due dates. (ED01GS0002, ED04GS0002)

1.6 	   Ensure COR appointment letters are issued timely by the CO, and signed and returned
        timely by the COR. Review all FSA contracts to ensure that all current CORs have
        received an appointment letter and that a signed copy is included in the contract file.

FSA Comments

In its response to the draft audit report, FSA concurred with the recommendations. FSA stated it
has implemented an Acquisition Policy Letter that lays out the manner in which deliverable
receipt and vendor invoices are to be processed. FSA stated that, in accordance with the new
Final Audit Report
ED-OIG/A19G0006                                                                        Page 9 of 17

policy, COs have assumed responsibility for approval of receipts and invoices, and are the only
individuals that communicate acceptance and rejection of deliverables.

FSA stated that while it concurred with the recommendation to ensure formal modifications are
issued for relevant contract changes, it did not believe that modifications for the noted contracts
were appropriate. FSA stated the COR overstepped the authority delegated to them and the CO
determined the changes were not reasonable. As a result, FSA stated the contractors would be
held to the contract requirements as they exist.

FSA stated it reviewed contract files to ensure the appropriate COR was appointed in CPSS and
that all had received delegations of their authority placed in the contract files.

The complete text of the response is included as Attachment 3 to this report.




                  OBJECTIVES, SCOPE, AND METHODOLOGY 



The objectives of our audit were to determine whether FSA’s contract monitoring process
ensures (1) contractors adhere to the requirements of the contract, and (2) FSA receives the
products and services intended. To accomplish our objectives we performed a review of internal
control applicable to the process for monitoring contracts within FSA. We interviewed FSA
staff to obtain an understanding of the process. We evaluated prior audits and reviews relating to
the contract monitoring process to determine possible vulnerabilities and any areas that required
audit follow-up. We reviewed requirements in the FAR and Department and FSA policy and
procedures related to the contract monitoring process. We reviewed contract files maintained by
FSA staff, and other related materials that supported the contract monitoring process for a
sample of contracts as further described below.

We focused our review on contracts that were active during the period October 1, 2004, through
September 30, 2005. We obtained a listing of contract payments for FY 2005 for all principal
offices from OCFO staff. The listing was extracted from FMSS, a component of EDCAPS. In
order to focus our review on contracts with significant activity that were most likely to require
active contract monitoring, we refined this list to eliminate payments that represented
interagency, purchase orders, and other types of payments, and those that totaled less than
$100,000 for a particular contract during the year. In total, we identified 9,080 payments to 519
different contracts that totaled $1,474,385,044 for the year.

We determined that FSA had the second highest number of payments of any PO (1,689 or 18.6
percent), the second highest number of active contracts (95 or 18 percent), and the highest
amount of payments during the year ($843,696,458.09 or 57 percent). We selected FSA for
review because it represented a significant number of the active contracts and amount of
payments during the scope period.
Final Audit Report
ED-OIG/A19G0006                                                                    Page 10 of 17

We selected for further review the 10 FSA contracts with the highest amount of contract
payments for the year. These contracts totaled $557,196,291.91 or 66 percent of the
$843,696,458.09 total payments to FSA contracts. These contracts were judgmentally selected
for review to provide coverage of the highest amount of contract payments. See Attachment 1
for a list of the contracts selected for review, and the number and dollar value of FY 2005
payments to those contracts.

During our review, we relied on computer-processed data obtained from EDCAPS/FMSS
representing contract payments for FY 2005. To assure ourselves of the completeness of this
data, we compared the contracts listed with payments to lists of active contract awards from
Contracts and Acquisition Management’s (CAM) website as of November 2004 and November
2005 -- a total of 996 unduplicated items. We found that 629 of the active awards as of those
two dates were included in the list of contracts with payments during FY 2005. For the 367
contracts in the two lists from CAM’s website that were not included in the listing of contract
payments, we found that 251 were multiple award task orders or blanket purchasing agreements
under which separate orders would be placed. These awards would not have payments. Of the
remaining 116 awards, 3 were small purchases and not considered contracts for the purposes of
our review. Payments under these purchases in FY 2005 were not material. All other contracts
were either awarded after or ended before FY 2005, or no payments were made under these
contracts during FY 2005. Based on this analysis, we determined the listing of contract
payments was complete for the purposes of our audit.

To evaluate the accuracy of the information contained in the contract payments listing received
from OCFO for the 10 contracts reviewed, we confirmed the payment amounts with the hard
copy invoices in the contract files, and with payment information included in CPSS, another
component of EDCAPS. We did not note any exceptions. Based on these analyses, we
determined the computer-processed data used was sufficiently accurate and reliable for the
purposes of our review.

We conducted fieldwork at Department offices in Washington, DC, during the period June 7,
2006, through February 6, 2007. We held an exit conference with FSA staff on June 1, 2007.
Our audit was performed in accordance with generally accepted government auditing standards
appropriate to the scope of the review described above.




                           ADMINISTRATIVE MATTERS



Corrective actions proposed (resolution phase) and implemented (closure phase) by your office
will be monitored and tracked through the Department’s Audit Accountability and Resolution
Tracking System (AARTS). Department policy requires that you develop a final corrective
action plan (CAP) for our review in the automated system within 30 days of the issuance of this
report. The CAP should set forth the specific action items, and targeted completion dates,
Final Audit Report
ED-OIG/A19G0006                                                                      Page 11 of 17

necessary to implement final corrective actions on the findings and recommendation contained in
this final audit report.

In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector
General is required to report to Congress twice a year on the audits that remain unresolved after
six months from the date of issuance.

Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

In accordance with the Freedom of Information Act (5 U.S.C. § 522), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

We appreciate the cooperation provided to us during this review. Should you have any
questions concerning this report, please call Michele Weaver-Dugan at (202) 245-6941.
Please refer to the control number in all correspondence related to the report.




                                      Sincerely, 




                                      George A. Rippey /s/ 

                                      Acting Assistant Inspector General for Audit    



cc:    	Patrick Bradfield, FSA Acquisition Group
       Tony Magro, Audit Liaison Officer




Attachments
Final Audit Report
ED-OIG/A19G0006                                                     Page 12 of 17

                Attachment 1: Contracts Included in the Audit

       Contract Number    Vendor Name      Number of FY     Total Amount of
                                           2005 Payments       Payments
      ED99DO0002        ACCENTURE               102          $90,825,120.17
      ED00CO0038        NCS PEARSON              64          $19,202,765.08
                        COMPUTER
                        SCIENCES
      ED01GS0002        CORPORATION              40             $54,184,007.93
                        ELECTRONIC
                        DATA SYSTEMS
      ED03CO0102/0002 CORPORATION                25              $3,054,909.51
                        ACS EDUCATION
      ED04CO0004        SOLUTIONS                54             $234,015,577.64
                        APPLIED
                        ENGINEERING
                        MANAGEMENT
      ED04GS0002        CORP                     87              $7,964,179.22
                        PHOENIX
                        PROGRAMMING
      ED04PO0377        SERVICES                 27              $4,214,148.04
      ED04PO1805        NCS PEARSON              28              $2,656,417.40
      ED05CO0008        NCS PEARSON              28             $128,949,557.92
      PM95009001        NCS PEARSON              31             $12,129,609.00
      Total number/amount of FY 2005            486             $557,196,291.91
      payments
Final Audit Report
ED-OIG/A19G0006                                                                      Page 13 of 17

                             Attachment 2: Issues Noted by Contract

ED99DO0002 – Accenture, $90,825,120.17 4

1.	 The CO was not involved in the invoice approval process.
    The COR stated the invoice is received in the budget office, and then sent to the COR for
    authorization and approval. The COR creates a receipt in CPSS, and sends an email to the
    budget office authorizing the payment to be made.


ED01GS0002 – Computer Sciences Corporation, $54,184,007.93

1.	 The CO was not involved in the invoice approval process.
    The CO stated that he was not really involved in the invoice process and that the contracts
    staff has very little involvement with invoicing. The CO said that he only hears from the
    COR regarding the invoice if there is a problem. The COR stated she and the budget office
    handled the invoices.

2.	 The COR did not appropriately communicate acceptance/rejection of deliverables.
    The CO stated he did not receive a recommendation to accept deliverables from the COR.
    The COR stated acceptance of deliverables was indicated in CPSS. Prior to the payment of
    invoices, a receipt for the invoice is created in CPSS, and a recommendation of acceptance of
    deliverables is noted on the receipts in CPSS. However, we found this process did not
    specifically document the COR’s recommendation for acceptance or rejection of specific
    deliverables.

3.	 FSA staff did not issue and/or sign modifications for contract changes.
    Five out of 72 bilateral modifications were not signed by the contractor. The modifications
    resulted in material and non-administrative changes to the contract, which included
    increasing funding and extending the contract end date. In addition, one modification was
    never issued for a contract change. A brief description of each modification is noted below:

      •	   Modification #65, dated 6/30/2005, de-obligated funds from the contract and reduced the
           dollar value of line item no. 91 of the contract by $230,000. The CS faxed the
           modification signed by FSA to the contractor on 6/30/2005 and asked that the contractor
           sign and fax it back.

      •	 Modification #58, dated 5/31/2005, incorporated proposal RGCA 2692. The CS faxed
           the modification signed by FSA to the contractor on 5/31/2005 and asked that the
           contractor sign and fax it back.

      •	 Modification #70, dated 9/30/2005, revised the contract by reducing funding from line
           no. 91 by $2,872,117.



4
    Amounts listed represent the FY 2005 payments made under each contract.
Final Audit Report
ED-OIG/A19G0006                                                                    Page 14 of 17

   •	 Modification #71, dated 9/30/2005, funded VDC operations in the amount of 

       $31,616,816. 


   •	 Modification #72, dated 10/25/2005, changed the contract expiration date.

   •	 A modification was not issued regarding the termination of Pell/Central Processing
       System printing services. FSA stated the contractor was verbally informed during a
       meeting on February 18, 2005, however the termination notice was never issued in
       writing.


ED03CO0102/0002 – Electronic Data Systems Corporation, $3,054,909.51

1.	 The CO was not involved in the invoice approval process.
    The COR stated he recommended acceptance to and the invoice is paid by the budget office.
    The CO only finds out that the invoice has been paid after the invoice has been processed for
    payment. The CO also mentioned that the individual in the budget office was designated as a
    CO to approve all FSA invoices for payment.

2.	 The COR did not appropriately communicate acceptance/rejection of deliverables.
    The COR stated that he was the final stop for deliverables. The CO confirmed that this was
    the process followed.

3.	 FSA staff did not issue and/or sign COR appointment letters timely.
    The COR appointment letter for the original COR could not be located in the contract files.
    During the review, the new COR and the CO both stated they could not locate the original
    COR appointment letter.


ED04CO0004 – ACS Education Solutions, $234,015,577.64

1.	 The CO was not involved in the invoice approval process.
    The CO stated that the COR and budget office handle the invoices, and that she had no
    knowledge of the process.

2.	 FSA did not ensure that incentive payments were verified by appropriate staff.
    The COR stated he relies on staff to properly validate invoices prior to his approval of
    payment. The COR directed OIG staff to a Program Analyst in the Contract Performance &
    Analysis Group to discuss how to verify the cohort incentive payment from one invoice
    during FY 2005. The Program Analyst had to seek the assistance of one of FSA’s IV&V
    contractors to explain how the incentive payment was calculated. The contractor stated that
    she verified the incentive payment during our scope period, and that they were in the process
    of transitioning so that FSA will understand how to verify the payment when the IV&V
    contract ends.

3.	 The COR did not appropriately communicate acceptance/rejection of deliverables.
    The COR stated he recommended acceptance of deliverables to a “designated CO” within the
Final Audit Report
ED-OIG/A19G0006                                                                                                  Page 15 of 17

       budget office who is responsible for approving invoices instead of the CO who administered
       the contract. The COR noted he thought this accelerated the process.

4.	 FSA staff did not issue and/or sign modifications for contract changes.
    The modification assigning a new COR was not issued timely. It was effective on November
    28, 2005, almost two years later than the COR appointment date.

5.	 FSA staff did not issue and/or sign COR appointment letters timely.
    The COR Appointment Letter for the current COR was signed on July 9, 2004. The current
    COR officially replaced the previous COR on January 1, 2004. The COR appointment letter
    was signed approximately six months later.

       In addition, a COR delegation letter could not be located for the original COR of this
       contract. FSA stated that a COR delegation letter was issued, but was apparently misplaced.


ED04GS0002 – Applied Engineering Management Corporation, $7,964,179.22

1.	 The CO was not involved in the invoice approval process.
    The CO stated that he was not involved with the invoice process. The invoices are submitted
    to the COR who reviews the invoices and approves them for payment by entering a receipt in
    CPSS. Once the COR clears the invoice for payment in CPSS, the invoice is processed
    through the budget office.

2.	 The COR did not appropriately communicate acceptance/rejection of deliverables.
    The COR stated she accepted deliverables for this contract instead of the CO. The COR also
    stated that she returns deliverables with comments if necessary and has the contractor
    resubmit them with the changes made. By doing this, she is in essence inappropriately
    rejecting the deliverables. The CO stated that since this is a smaller contract compared to the
    others he is the CO for, he delegated the majority of the monitoring to the COR.

3.	 FSA staff did not issue modifications/task orders for contract changes.
    The deliverable schedules for the contract were modified by the COR without the CO issuing
    a formal modification. Also, as a result of the COR informally changing the deliverable
    schedule, nine deliverables were submitted past their original due dates. Details are included
    in the table below:

       Deliverable Name                Original Due Date               Received Date                  Days Late
       NSLDS Maintenance               Quarterly update                Annually received;             N/A-see footnote 5
       Plan                                                            submitted on 7/5/05            below.
                                                                       and 8/2/05(final)
       Application Software            Quarterly update                Annually received; last        N/A-see footnote
       Maintenance Plan                                                submitted on 7/5/05            below.


5
    Based on the fact that the contract did not have an exact due date for quarterly submissions, we were unable to determine how
    many days the deliverable was late.
Final Audit Report
ED-OIG/A19G0006                                                                    Page 16 of 17

   System Performance       Quarterly update       Received semi-          N/A-see footnote 5 on
   Monitoring Plan                                 annually; last          page 15.
                                                   submitted on 3/5/06
   TO2- Application         12/31/2004             3/26/2005                         85
   Software
   TO2- Final Detail        10/26/2004             3/25/2005                        150
   Design Document
   T02- Final System        10/26/2004             3/25/2005                        150
   Intergration Test Plan
   TO6- Application         12/31/2004             5/21/2005                        141
   Software
   TO6- Final Detail        10/8/2004              11/12/2004                        35
   Design Document
   TO6-Final Integration    10/8/2004              11/12/2004                        35
   Test Plan


ED04PO0377 – Phoenix Programming Services, $4,214,148.04

1.	 The CO was not involved in the invoice approval process.
    The CO stated that although he was not involved in the process, he was aware that this was
    supposed to be his responsibility. Invoices are submitted to the COR, who reviews and
    approves them through CPSS, and the invoices are then processed through the budget office.

2.	 The COR did not appropriately communicate acceptance/rejection of deliverables.
    The COR stated she accepted deliverables for this contract and not the CO. Furthermore, the
    Program Manager indicated he was “informally” rejecting about one report per month,
    providing written comments to the contractor and asking them to resubmit with appropriate
    changes made. Neither acceptance nor rejection was ever communicated to the CO.


ED04PO1805 – NCS Pearson, $2,656,417.40

1.	 The CO was not involved in the invoice approval process.
    The CO stated that he and the CS did not receive invoices. Invoices are sent to the COR,
    who enters them into CPSS and approves them for payment. The COR confirmed this
    information and stated that she and the budget office process the invoices.


ED05CO0008 – NCS Pearson, $128,949,557.92

1.	 The CO was not involved in the invoice approval process.
    The CO stated that the budget office receives the invoices and sends them to the COR for
    review and approval. The CO also stated that contract staff have not been involved in the
    approval process, and that it is the COR’s and budget office’s function.
Final Audit Report
ED-OIG/A19G0006                                                                   Page 17 of 17

PM95009001 – NCS Pearson, $12,129,609.00

1.	 The CO was not involved in the invoice approval process.
    The CO stated that contract staff are not involved with the invoice process. He stated that
    this is a function of the COR and the budget office. The COR creates a receipt in CPSS, and
    the budget office approves the invoice for payment.
                                                                      Attachment 3: FSA Response to Draft Report




                                        CHI EF OPERATING OFHCER

TO:             Michelle Weaver-Dugan                                           AUG    8 'JJJ7
                Director, Operations Internal Audit Team
                Orrice of Inspector General

FROM :          Lawrence A. Warder
                Acting Chief OI)Crati ng Orricer

SUBJECT: 	      Responsc to Draft Audit Report - COlltrols Over COII/racl MOllitorillg/or Federal
                Stlldelll Aid COIl/racts Control Number EO-O IGIA 19-G0006

Thank you for the opportunity to respond to Draft Audit Report, Control Number ED-OIG/A 19­
G0006. entitled COillrols Over COlllract Monitoring/or Federal Studellt Aid Call tracts. We
concur with your recommendations for improvements in the contract monitorin g process and
provide the following responses to the individual recolllmendations.

OIC Reco mm enda t ion s

I. J   Develop alld implement a process to ensure COs conduct proper allalysis alld approval
       0/ ill voices.

Fede ral Siud en t Aid Res ponse - Federal St uden t Aid concurs with thi s reco mmendation.
Although the Administrative Contract ing Officer (ACO) is responsible for all facets of contract
perfomlancc, ACOs were not approving payment in the rinaneial system, which ultimately
demonstrates acceptance of deliverables and authorization to release payment. In most cases, the
individual with the knowledge about the contract reql]irements and acccp tability of th e in vo ice,
the ACO, was not involved in the invoice process. Federal Student Aid Acquisitions has
impl emented Acqui siti on Policy Letter 07-00 I, effective February \6, 2007, which lays out the
manner in which deliverable receipt and vendor invoices are to be processed. ACOs assumed
respon sibility for approva l of receipts and invoices 011 March 26, 2007.

1.2      Ensllre contract stajJhas the techllical expertise lI eedelllO adequately verify pay ll/ellts.

Fed era l Student Aid Res pons e - Federal Student Aid concurs with thi s recomm endation. Th e
Contracting Officer' s Representative (COR) de legation s for all identified contracts clearly
identify the limits of the authority assigned to them . The CORs shall continue to enter receipts
into the Oracle system and have rece ived training prior 10 their appointments. COR s recommend
acceptance and the Contracting Orricer (CO) accepts/rejects the deliverables . COs will
co mmuni cate 10 vendors in cases where rinal del iverables do not meet Ihe standards in the



                                  830 Fir:.] $1. N.E.. Washington, DC 20202
                                     \\I wW.Fl!dcra I Student A id .cd .go v

                                             J-800-4-FED-AlO

         FEDERAL STUDENT A I D                    :~~;;;:-START    HERE. GO FURTHER.
contracts as identified by the COR. In cases where the CO R recommends acceptance, no furt her
action is requ ired by the CO to demonstrate acceptance except by receipt approval in the system.
All COs have recei ved training in the Oracle receipts and invoice modules to ensure Ihat they can
both accept rece ipts for del iverables that mcet contract requiremen ts and process the appropriate
payments through the Departme nt 's finance system. This training was conducted on March 6,
2007. ACOs assu mcd respons ibili ty for approva l ofreceipls and invoices for thcir co ntracts on
March 26, 2007.

1.3 	   Develop (lnd implement a process to ensure acceptanceirf!jectioll ofdeliverables is
        appropriately COllllllUllicafed by the COR to the Co. Ensllre Ihe CORs provide writlell
        recommendations ofdeliverable (l cceptance/rqjecfioll to rhe COs. This could in elude the
        lise ofthe deliverable inspection worksheet rhat is suggested ill rhe F!:J'A COR COlltracl
        Monitoring Handbook.

Feder a l Stud ent Aid Response - Federal Student Aid co ncurs with this recomm endati on.
Federal Student Aid Acquisitions has implemented Acquisition Poli cy Letter 07-001 efrect ive
February 16,2007 that lays out the manner in which deliverable rcceipt and vendor invoices are
to be processed. This process includes the req uirement for the COR to email the CO upon
completing a receip t for goods or servi ces in the Oracle system. ACOs ass um ed responsibility
ror approval of recei pts and in voiccs on March 26, 2007. A Federal Student Aid working group
has rewo rked the COR Conrracl Monitoring Handbook into the Acquisition Process /-Iamlbook.
The next release will incorporate the revised deliverable receipt process. COR training currently
being establ ished within the Department will include all aspects of CO R responsibiliti es.

1.4 	   Ensure the CO is the only illdividllal commllllicating acceptance/rejectioll to the
        contractor.

Federal Studen t Aid Respon se - Federal Student Aid co ncurs with this recomm endati on. The
Department does not require formal acceptance or deliverabl es except through the approval of
invoi ces. Effective April 1, 2007, only the ACO communi cates acceptance through invoice
approval. Reject ion s of deliverabl es/invoices are handl ed exclusivcly by the ACO per
Acquisition Poli cy Letter 07-001.

1.5 	   Ensureforlllal modificatiolls are isslledJor relevant contract changes. Issue
        modifications for fhe contracts noted above with regard to deliverable [erlllillatioll and
        changes ill deliverable dlle dates. (EDOI GS0002, ED04GS0002)

Feder a l Stu dent Aid Res ponse - Federal Student Aid concurs with thi s recommendation.
However, Federal Student Aid does not believe that contract modifications for the noted
contracts are appropriate. [n these contracts, the CO R overstepped the autho rity delegated to
th em. In such a situation, irthe CO determin es the action reasonable, a mod ification will be
issued to refl ect the change. In cases where the CO detennines the chan ge was not reasonabl e,
as in these two contracts, the contractor will be he ld to the contract requirement, as they exist.
COs arc responsible for maintaining their assigned co ntracts, which include the issuance of
contract mod ifications for all contract actions regardless of size or dollar value. Thi s has always
been the case.




                                                  2

1.6 	   Ensure COR appointment/elfers are issued timely by fh e Co. alld signed alld refilmed
        timely by the COR. Review all FSA COlllracts to ensure that aii Cllrrent CORs ha ve
        received an appointment letter and rhar a siglled copy is illeluded ill rile contraci file.

Fcde roll Student Aid Response - Federal Student Aid concurs with th is recommendation.
Federal Student Aid undertook the task of reviewing contract fil es to ensure that the approp ri ate
CO R was appointed in the Co ntract and Purchasin g Support System (C PSS) and that all had
received delegations of their authority placed in the contract files . The Director of Contracts,
with all COs, began this review on March 13,2007. We are curren tly ana lyzin g the system data
and comparing it to the actual appointments. The system should correctly reOecI COR
appointments by Jul y 3 1,2007.

Attachm ent
Policy Letter 07-001




                                                  3

